LLC
.56X4-C.onnec±ieut-Ayenue. NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

August 6, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Yvonne O. Reignat-Vodi d/b/a Shepherds Driving School v. Maryland

Motor Vehicle Administration
Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on August 6, 2021,1 caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following counsel for the Respondent:
RESPONDENT:
David C. Merkin
Assistant Attorney General
Office of the Attorney General
Motor Vehicle Administration
6601 Ritchie Highway, N.E.
Room 200
Glen Burnie, Maryland 21062
(410) 768-7415 (Phone)
(410) 768-7414 (Facsimile)
dmerkin@oag.state.md.us
This service was effected by depositing one copy of a Motion for Untimely Filing
and Petition for a Writ of Certiorari in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
7

Jack Suber, Esq.
Principal

RECEIVED
AUG 10 202'

gfsaagjaw
LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission exp. October 12,2022

45%

W

Sworn and subscribed before me this 6th day of August 2021.

c^f

%

LK

